OIG Investigative Reports Press Release Cleveland OH., 04/09/2014 - Cleveland Man Charged With Fraudulently Receiving $55,000 in Student Financial Aid
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
THE UNITED STATES ATTORNEY'S OFFICE
NORTHERN DISTRICT of OHIO
NEWS
Cleveland Man Charged With Fraudulently Receiving $55,000 in Student Financial Aid
FOR IMMEDIATE RELEASE
April 09, 2014
A Cleveland man was indicted on charges that he fraudulently received up to $55,000 in federal student financial aid funds, said Steven M. Dettelbach, United States Attorney for the Northern District of Ohio.
Robert Williams, 35, faces one count of theft of federal student financial aid funds.
The indictment alleges that Williams enrolled in approximately six different Ohio colleges between 2007 and 2012 in order to receive Department of Education and Department of Veterans Affairs federal student aid benefits, despite the fact that he had no intention of obtaining a degree.
Williams used the federal student aid funds for his own personal use and enjoyment, according to the indictment.
Assistant United States Attorney Matthew J. Cronin is prosecuting the case following an investigation by the Department of Education -- Office of Inspector General and the Department of Veterans Affairs -- Office of Inspector General.
If convicted, the Court will determine the defendant’s sentence after a review of factors unique to this case, including the defendant’s prior criminal record, if any, the defendant’s role in the offense, and the characteristics of the violation.  In all cases, the sentence will not exceed the statutory maximum.  In most cases, it will be less than the maximum.
An indictment is only a charge and is not evidence of guilt.  A defendant is entitled to a fair trial in which it will be the government’s burden to prove guilt beyond a reasonable doubt.
Top
Printable view
Last Modified: 04/16/2014
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov